         U.S. Department of Energy
         Office of Inspector General
         Office of Audit Services




Audit Report
The Procurement of Safety
Class/Safety-Significant Items at the
Savannah River Site




DOE/IG-0814                            April 2009
                             Department of Energy
                                Washington, DC 20585

                                     April 23, 2009


MEMORANDUM FOR THE SECRETARY

FROM:                    Gregory H. Friedman
                         Inspector General
SUBJECT:                 INFORMATION: Audit Report on "Procurement of
                         Safety-Class/Safety-Significant Items at the Savannah River
                         Site"
BACKGROUND
The Department of Energy operates several nuclear facilities at its Savannah River Site,
and several additional facilities are under construction. This includes the National
Nuclear Security Administration's Tritium Extraction Facility (TEF) which is designated
to help maintain the reliability of the U.S. nuclear stockpile. The Mixed Oxide Fuel
Fabrication Facility (MOX Facility) is being constructed to manufacture commercial
nuclear reactor fuel assemblies from weapon-grade plutonium oxide and depleted
uranium. The Interim Salt Processing (ISP) project, managed by the Office of
Environmental Management, will treat radioactive waste.
The Department has committed to procuring products and services for nuclear-related
activities that meet or exceed recognized quality assurance standards. Such standards
help to ensure the safety and performance of these facilities. To that end, it issued
Departmental Order 414.1C, Quality Assurance (QA Order). The QA Order requires the
application of Quality Assurance Requirements for Nuclear Facility Applications (NQA-
1) for nuclear-related activities. The NQA-1 standard provides requirements and
guidelines for the establishment and execution of quality assurance programs during the
siting, design, construction, operation, and decommissioning of nuclear facilities. These
requirements, promulgated by the American Society of Mechanical Engineers, must be
applied to "safety-class" and "safety-significant" structures, systems and components
(SSCs). Safety-class SSCs are defined as those necessary to prevent exposure off site
and to protect the public. Safety-significant SSCs are those whose failure could
irreversibly impact worker safety such as a fatality, serious injury, or significant
radiological or chemical exposure. Due to the importance of protecting the public,
workers, and environment, we initiated an audit to determine whether the Department of
Energy procured safety-class and safety-significant SSCs that met NQA-1 standards at
the Savannah River Site.
RESULTS OF AUDIT
Our review disclosed that the Department had procured and installed safety-class and
safety-significant SSCs that did not meet NQA-1 quality standards. Specifically, we
identified multiple instances in which critical components did not meet required quality
and safety standards. For example:
                                              2

   •   Three structural components were procured and installed by the prime contractor
       at Savannah River during construction of the MOX Facility that did not meet the
       technical specifications for items relied on for safety. These substandard items
       necessitated costly and time consuming remedial action to, among other things,
       ensure that nonconforming materials and equipment would function within safety
       margins;

   •   In six instances, items used in the construction of TEF failed to satisfy quality
       standards. In one of these situations, operating procedures had to be modified to
       ensure that the problem item did not compromise safety; and,

   •   Finally, at the ISP, one component that did not meet quality standards was
       procured. The failure of the item could have resulted in a spill of up to 15,000
       gallons of high-level radioactive waste.

Based on an extensive examination of relevant internal controls and procurement
practices, we concluded that these failures were attributable to inadequate attention to
quality assurance at Savannah River. Simply put, Departmental controls were not
adequate to prevent and/or detect quality assurance problems. For example, Federal and
prime contractor officials did not expressly require that subcontractors or lower-tiered
vendors comply with quality assurance requirements. Additionally, management did not
effectively communicate quality assurance concerns between the several Departmental
program elements operating at Savannah River.

The procurement and installation of these nonconforming components resulted in cost
increases. For example, as of October 2008, the MOX Facility had incurred costs of
more than $680,000 due to problems associated with the procurement of $11 million of
nonconforming safety-class reinforcing steel. In general, the internal control weaknesses
we discovered could have permitted, without detection, the procurement and installation
of safety critical components that did not meet quality assurance standards. In a worst
case scenario, undetected, nonconforming components could fail and injure workers or
the public.

In certain instances, the Department took steps to ensure that the prime contractors at
Savannah River began action to remediate nonconforming components and to strengthen
policies and procedures. Additionally, the Department took actions to ensure that critical
components necessary for projects worked as designed by requiring that the prime
contractor place personnel at manufacturers' locations. Further, the Department had
suspended work with certain other manufacturers due to quality assurance problems.
Although these are positive steps, weaknesses in oversight and communication remain;
therefore, additional action is necessary. For that reason, we made several
recommendations designed to strengthen quality assurance at Savannah River.

Finally, the matters discussed in this report provide valuable lessons learned as the
Department implements the American Recovery and Reinvestment Act. Specifically, the
Department will use massive amounts of Recovery Act stimulus funds to initiate new and
to accelerate ongoing projects throughout its complex. All of this is to be done as
expeditiously as possible to promote the stimulative impact of these expenditures. In
such an environment, the Department must maintain a focus on quality assurance issues,
such as those discussed in this report, to ensure the safety of its workforce and the public.
                                             3

MANAGEMENT REACTION
The Department's Office of Environmental Management (EM) supported the conclusions
and the recommendations reached and told us that it had identified similar quality
weaknesses at Savannah River. EM noted that it is taking steps to ameliorate the
weaknesses identified in a manner consistent with the recommendations provided in our
report. EM concluded that its efforts are expected to improve the procurement process
for safety-class and safety-significant structures, systems, or components.

The National Nuclear Security Administration (NNSA) agreed with the recommendations
presented in the report; however, it did not agree with stated conclusions concerning the
safety of the facilities, related cost impacts, nor did it agree with the tone of the report.
NNSA further asserted that our audit did not take into consideration the fact that when
the U.S. Nuclear Regulatory Commission (NRC) reviewed the MOX Facility it opined
that the quality assurance problems were of low significance.

We acknowledge that the Notice of Violation issued by the NRC for the MOX quality
assurance problems was assigned NRC's lowest level of severity; however, we do not
agree that the problems were of low significance. The NRC's findings were based on
failures to meet regulatory and/or quality assurance criterion, and as such, are not
inconsistent with our findings. Unless and until the Department resolves the internal
control weaknesses that permitted the failures NRC identified at MOX, it is possible that
non-conforming parts or components that do not meet safety standards could continue to
be procured and installed in critical nuclear facilities.

Management's comments are generally responsive to our recommendations and are
attached as Appendix 3. We summarized management comments and our responses and
have included them in the body of the report.

Attachment
cc:   Office of the Deputy Secretary
      Office of the Under Secretary of Energy
      Acting Assistant Secretary, Office of Environmental Management
      Administrator, National Nuclear Security Administration
      Chief of Staff
      Manager, Savannah River Operations Office
      Manager, Savannah River Site Office
REPORT ON PROCUREMENT OF SAFETY-CLASS/SAFETY-
SIGNIFICANT ITEMS AT THE SAVANNAH RIVER SITE

TABLE OF
CONTENTS


Procurement of Safety-Class/Safety-Significant Items

Details of Finding .............................................................................................................1

Recommendations ............................................................................................................9

Comments .......................................................................................................................10


Appendices

1. Objective, Scope, and Methodology..........................................................................12

2. Prior Report ..............................................................................................................14

3. Management Comments ............................................................................................15
PROCUREMENT OF SAFETY-CLASS/SAFETY-SIGNIFICANT
ITEMS

Quality               The Department of Energy (Department) is required by
Requirements          10 CFR Part 830 and 10 CFR Part 50 to implement quality
                      assurance standards for building and operating its nuclear
                      facilities. The Department implements the quality
                      assurance standards through its prime contractors. Prime
                      contractors are required to develop and implement a quality
                      assurance plan necessary to provide assurance that all
                      structures, systems and components (SSCs) will perform as
                      designed. The Department's prime contractors at the
                      Savannah River Site (Savannah River) are required to
                      adhere to American Society of Mechanical Engineers
                      Quality Assurance Requirements for Nuclear Facility
                      Applications (NQA-1) standards for their quality assurance
                      programs. NQA-1 sets forth requirements and guidance for
                      the establishment and execution of quality assurance
                      programs.

                      Relevant NQA-1 standards include requirements that prime
                      contractors:

                         •   Evaluate subcontractors' capabilities to provide a
                             SSC in accordance with specified requirements
                             prior to contract award;

                         •   Perform periodic audits and inspections of
                             subcontractors to ensure continued compliance with
                             procurement requirements;

                         •   Ensure that quality assurance requirements are
                             "flowed down" in procurement documents.
                             Additionally, contracts shall provide for access to
                             subcontractor facilities for audits and inspections;

                         •   Verify that the item procured conforms with
                             procurement requirements prior to receiving and
                             installing a SSC. This may be done through
                             receiving inspections, source verifications,
                             certificates of conformance, post installation tests or
                             a combination of these methods;

                         •   Employ special processes that control or verify
                             quality, such as those used in welding, heat treating,
                             and nondestructive examination. These processes
                             must be performed by qualified personnel using
                             qualified procedures in accordance with specified
                             requirements; and,
________________________________________________________________
Page 1                                            Details of Finding
                                         •   Ensure that items that do not conform to specified
                                             requirements are not inadvertently installed and
                                             used.

                                    As noted in the above requirements, it is important that
                                    NQA-1 requirements be followed to help ensure that SSCs
                                    meet safety and performance expectations. Therefore,
                                    when the prime contractor relies on subcontractors and
                                    lower-tiered vendors to supply safety-class or safety-
                                    significant SSCs, it is the prime contractor's responsibility
                                    to ensure that the appropriate NQA-1 requirements are
                                    clearly “flowed down” to all lower-tiered vendors.

Safety-Class/Safety-                Our audit disclosed that, in a number of instances, the
Significant                         Department's prime contractors at Savannah River
Procurements                        procured and installed safety-class and safety-significant
                                    SSCs at major nuclear facilities that did not meet NQA-1
                                    standards. We reviewed ten procurements for three nuclear
                                    facilities at Savannah River where NQA-1 standards were
                                    required. In each of the ten procurements, we noted that
                                    NQA-1 requirements were either not met or could not be
                                    substantiated.

                                                 Mixed Oxide Fuel Fabrication Facility

                                    Of the three procurements of safety-class SSCs for the
                                    Mixed Oxide Fuel Fabrication Facility (MOX Facility) at
                                    Savannah River that we evaluated, none met NQA-1
                                    standards. Construction of the MOX Facility, a $4.8 billion
                                    project managed by the Department's National Nuclear
                                    Security Administration (NNSA), began in 2007. When
                                    complete, the MOX Facility will convert surplus weapon-
                                    grade plutonium into pellets for commercial reactor fuel
                                    assemblies. The project's prime contractor, Shaw/AREVA
                                    MOX Services, LLC (Shaw/AREVA) ordered more than
                                    $11 million of rebar 1 as well as $3.5 million in piping and
                                    embed plates 2 , from subcontractors. While these
                                    subcontractors were on Shaw/AREVA's Approved
                                    Suppliers List, the Nuclear Regulatory Commission (NRC),
                                    in an inspection report dated May 20, 2008, discovered that



1
  Reinforcing steel bar (rebar) is used to reinforce concrete. Reinforced concrete is composite material.
The concrete provides the material's compressive strength, while the steel - in the form of embedded
reinforcing bars - provides tensile strength.
2
  Embed plates are steel plates set into the concrete during construction and are used to attach process
equipment and structural components to concrete.
________________________________________________________________
Page 2                                            Details of Finding
                      the subcontractors had subsequently procured and delivered
                      nonconforming SSCs from lower-tier vendors.
                      Specifically:

                         •   Shaw/AREVA's subcontractor commercially
                             procured 9,500 tons of rebar from a non-qualified
                             NQA-1 vendor. The subcontractor in this case
                             procured the rebar from a lower-tier vendor and had
                             it shipped directly to the MOX Facility, failing to
                             perform adequate inspections to verify conformance
                             to specifications during fabrication. Although there
                             had been previous reports of nonconformance with
                             NQA-1 quality assurance requirements by the
                             supplier for over one year, it was not until February
                             2008 that it was discovered that the rebar did not
                             meet the code specification for nuclear structures.
                             During installation, rebar was identified that did not
                             conform to a nuclear specification for a bend in the
                             material that was relied on for safety. The
                             nonconforming rebar was identified after a piece
                             broke when struck by a sledgehammer.
                             Subsequently, Shaw/AREVA determined the design
                             of the MOX facility was sufficiently robust to
                             tolerate the 14 tons of nonconforming rebar already
                             embedded in concrete. Approximately 135 tons
                             were cut to remove the nonconforming nuclear bend
                             and were used as straight rebar, or in areas without
                             structural concerns; however, 935 tons of
                             nonconforming rebar were returned to the
                             manufacturer.

                         •   The prime contractor for the MOX Facility, through
                             a subcontractor, also procured commercial piping
                             material used in applications relied on for safety
                             from a non-qualified NQA-1 supplier. In this
                             instance, Shaw/AREVA's subcontractor did not
                             perform the necessary quality assurance reviews to
                             provide reasonable assurance that the piping
                             procured from a lower-tier vendor was suitable for
                             use in nuclear applications.

                         •   In yet another example, a Shaw/AREVA
                             subcontractor commercially procured steel plate
                             material that did not meet NQA-1 standards. As in
                             the preceding example, the subcontractor did not


________________________________________________________________
Page 3                                            Details of Finding
                             perform an adequate review to provide reasonable
                             assurance that the commercial plate material was
                             suitable for use in a nuclear facility.

                      While Shaw/AREVA had conducted audits and
                      surveillances of quality assurance at its subcontractors, it
                      did not ensure that appropriate NQA-1 requirements were
                      flowed down to lower-tier vendors. We noted that in each
                      of the instances above, Shaw/AREVA had inadequate
                      procurement and quality assurance procedures to ensure
                      that NQA-1 requirements were passed down to all
                      subcontractors and lower-tier vendors and that SSCs were
                      suitable for use in nuclear facilities. It should be noted that
                      on November 12, 2008, the NRC concluded that, overall,
                      the construction of this facility was being performed safely
                      and identified no specific areas needing improvement in the
                      area of quality assurance.

                                       Tritium Extraction Facility

                      None of the six procurements of safety-significant SSCs we
                      reviewed for the Tritium Extraction Facility (TEF) met
                      quality assurance standards. The TEF, located at Savannah
                      River and managed by Washington Savannah River
                      Company (WSRC) for NNSA, is a $500 million one-of-a-
                      kind facility operated to replenish the nation's stockpile of
                      tritium. TEF handles highly radioactive substances, such as
                      tritium, a radioactive form of hydrogen necessary for
                      nuclear weapons. The TEF provides the capability to
                      receive and extract gases containing tritium from irradiated
                      rods. However, even though NQA-1 standards were clearly
                      flowed down to its subcontractors, WSRC procured and
                      installed safety-significant SSCs which did not meet NQA-
                      1 requirements in the facility. For example:

                         •   WSRC procured safety-significant gloveboxes from
                             a subcontractor for more than $12 million. The
                             gloveboxes were designed to be airtight and contain
                             inert argon gas and equipment for processing
                             tritium. Even though the subcontractor was audited
                             and qualified by WSRC as an NQA-1 supplier, it
                             failed to flow down NQA-1 requirements to all of
                             its lower-tier vendors. Specifically, some of these
                             vendors maintained only commercial quality
                             programs while others were merely retail catalog
                             vendors and did not have a quality program at all.
                             Thus, the glovebox components were not procured
________________________________________________________________
Page 4                                            Details of Finding
                             under an NQA-1 program, a practice that increased
                             the risk that items may not function as intended and,
                             therefore, may not adequately protect workers from
                             exposure to radioactive gas. The Department
                             reported that in spite of the quality assurance
                             problems, the gloveboxes in question were
                             ultimately certified for operations during pre-start-
                             up using standard engineering procedures.

                         •   The prime contractor ordered furnace module doors,
                             valued at approximately $690,000, from a
                             subcontractor. These module doors were intended
                             to provide a leak-tight seal for the Target Rod
                             Preparation Furnace Modules and were part of the
                             secondary confinement for the furnace modules
                             used to extract tritium in a gaseous state. Even
                             though the subcontractor was qualified by WSRC,
                             certain SSCs supplied and used to manufacture the
                             module doors did not meet NQA-1 standards. For
                             example, NQA-1 requires that activities affecting
                             quality must be prescribed by and performed in
                             accordance with documented instructions,
                             procedures, or drawings. However, the
                             subcontractor failed to comply with documented
                             instructions and, therefore, did not properly drill
                             holes for the bolts that secured the module doors to
                             the furnace modules. Management stated that
                             subsequently, WSRC spent $100,000 to perform
                             retroactive quality assurance procedures that
                             permitted it to certify this equipment under NQA-1.

                         •   Additionally, WSRC procured approximately
                             $140,000 worth of studs and nuts to secure the
                             module doors to the furnace modules. WSRC
                             flowed down NQA-1 requirements to its
                             subcontractor; however, the subcontractor did not
                             flow down these requirements to its lower-tier
                             vendors.

                         •   WSRC also purchased a safety-significant robotic
                             system for nearly $1.5 million. The robotic system
                             is to be used in remote operations to eliminate
                             human contact with radiological and chemical
                             hazards. Again, while WSRC required the
                             subcontractor to comply with NQA-1 requirements,


________________________________________________________________
Page 5                                            Details of Finding
                             the subcontractor did not flow down these
                             requirements to its lower-tier vendors.
                             Consequently, the lower-tier vendor procured the
                             components commercially.

                      We noted that in each of the instances above, WSRC
                      procedures were inadequate in that they did not pass down
                      appropriate quality assurance requirements to all
                      subcontractors and lower-tier vendors to ensure that the
                      SSCs were suitable for use in the facility. Additionally,
                      WSRC had inadequate procedures to ensure that a
                      subcontractor was qualified as a NQA-1 supplier prior to
                      award. Specifically, WSRC procurement procedures do
                      not require subcontractors to be audited and qualified to
                      NQA-1 standards prior to contract award. WSRC
                      procedures specify only that the supplier's quality assurance
                      manual be reviewed during the bid evaluation for a
                      particular component. In our review of safety-significant
                      electronic SSCs for the gloveboxes in TEF, the
                      subcontractor submitted its quality assurance manual;
                      however, it was not reviewed by WSRC until four months
                      after the contract award. Additionally, we found the
                      subcontractor's quality assurance manual was inadequate
                      because it did not incorporate the necessary methodology
                      required by NQA-1 to meet safety and quality standards.

                                    Interim Salt Processing Project

                      At the Interim Salt Processing (ISP) project our audit
                      identified the procurement of one safety-class SSC that did
                      not meet NQA-1 requirements. The ISP project was
                      managed by the Office of Environmental Management
                      (EM) and was designed to remove radionuclides and
                      cesium from radioactive tank waste and facilitate its
                      ultimate vitrification by the Defense Waste Processing
                      Facility. WSRC procured stainless steel round bars that
                      were machined into caps, designated as safety-class
                      components, and used to support the transfer of radioactive
                      salt waste. As with previous examples, the subcontractor
                      had not “flowed down” NQA-1 requirements to lower-tier
                      vendors and, therefore, the steel caps were not fabricated
                      under a NQA-1 program. This subcontractor was the same
                      one used by Shaw/AREVA to supply nonconforming SSCs
                      to the MOX Facility.




________________________________________________________________
Page 6                                            Details of Finding
Oversight of          The Department did not provide adequate oversight of the
Quality Assurance     prime contractors' quality assurance programs at Savannah
Programs              River. Particularly, the Department did not adequately
                      establish and implement processes to detect and/or prevent
                      quality problems. Additionally, the Department did not
                      effectively communicate quality assurance issues between
                      the programs operating or constructing major facilities at
                      Savannah River.

                              Detection/Prevention of Quality Problems

                      The Department did not establish adequate processes to
                      detect and/or prevent quality problems from occurring at
                      Savannah River. As previously noted, while the contractor
                      had responsibility to implement quality assurance
                      requirements, the Department must still provide the
                      necessary oversight to ensure that the requirements are
                      being followed. The Department, however, did not have a
                      rigorous enough process in place to prevent and/or detect
                      problems related to the flow down of NQA-1 requirements
                      in purchase orders to subcontractors and lower-tier vendors.
                      For example, the Department failed to detect quality
                      assurance issues with the procurement of safety-class rebar
                      at the MOX Facility until a piece of rebar broke during
                      installation. Only then was oversight increased and
                      management discovered that 9,500 tons of rebar was
                      procured under a non-NQA-1 program. Even though the
                      Department had procedures in place to detect and prevent
                      quality problems, the Department and its contractors told us
                      that they lacked adequate quality assurance resources to
                      meet the required responsibilities.

                      In another example, the Department failed to detect and
                      prevent quality problems at TEF where, as early as October
                      2003, the Department's Office of Enforcement noted
                      quality assurance concerns and levied enforcement actions
                      with the same subcontractor that provided the
                      nonconforming furnace module doors at TEF. However,
                      for both the TEF and ISP projects, which began hot
                      operations in Fiscal Years 2007 and 2008 respectively, the
                      Department continued to use the subcontractor for SSCs
                      that were required to meet NQA-1 standards, but had not
                      performed an adequate review of the subcontractor’s
                      quality assurance program. In fact, these quality problems
                      were not identified at Savannah River until a whistleblower
                      reported quality assurance concerns to the Department.

________________________________________________________________
Page 7                                            Details of Finding
                                   Communication Between Projects

                      The Department did not effectively communicate quality
                      assurance issues between the various projects at Savannah
                      River. Savannah River is considered a multi-programmatic
                      site in that it includes EM and NNSA activities. Each of
                      these programs maintains its own respective quality
                      assurance oversight functions. However, quality assurance
                      issues and concerns within these organizations were not
                      communicated between the projects at the site.
                      Specifically, the subcontractor that provided the
                      nonconforming rebar for NNSA's MOX Facility also
                      supplied nonconforming safety-class caps to EM's ISP
                      project. When NNSA identified concerns with the rebar
                      being provided to the MOX Facility, it failed to effectively
                      communicate quality assurance problems with this
                      subcontractor to EM officials at Savannah River Operations
                      Office. In fact, the EM officials at Savannah River
                      Operations Office were unaware of the quality issues with
                      this subcontractor until we brought them to their attention.
                      NNSA officials explained that they had included quality
                      assurance problems with the rebar in the Department’s
                      Occurrence and Processing System and NNSA’s Lessons
                      Learned system. Our review, however, disclosed that the
                      reports in these systems did not provide enough specificity,
                      including the identification of the subcontractor, to be
                      useful to other Departmental entities.

                      Likewise, EM officials at the Savannah River Operations
                      Office did not communicate quality assurance problems
                      discovered at TEF to NNSA officials at the MOX Facility.
                      The MOX Facility was in the process of procuring SSCs
                      when it became aware, as a result of a complaint made
                      from outside the Department, that the subcontractor had
                      quality assurance deficiencies. After learning of the quality
                      assurance deficiencies, Shaw/AREVA awarded the work to
                      another subcontractor.

                      According to officials, EM plans to develop a formal
                      process to notify other Department offices about nuclear
                      suppliers that do not meet quality assurance requirements.
                      Effective implementation of such a process should
                      significantly improve communication issues identified in
                      this report, especially, if implemented on a Department-
                      wide basis.



________________________________________________________________
Page 8                                            Details of Finding
                                      Recent Actions Encouraging

                       To the Department's credit, it has taken steps to ensure that
                       the contractors at Savannah River remediate
                       nonconforming SSCs and strengthen policies and
                       procedures. Specifically, at the MOX Facility, action has
                       been taken to remediate nonconforming rebar. Because
                       rebar had already been embedded in the concrete,
                       subsequent alternative procedures were used and approved
                       by the NRC to determine whether the rebar could be
                       acceptable as safety-class material. Additionally, the
                       Department had taken steps to ensure that critical
                       components function as designed by requiring the
                       contractor to increase quality controls and place personnel
                       at the manufacturer's locations. For example, one full-time
                       contractor employee has been at a subcontractor's facility
                       since July 2008 providing oversight activities such as
                       ensuring that engineering and quality requirements are
                       adhered to and that the subcontractor flowed down quality
                       assurance requirements to lower-tier vendors. Further, the
                       Department has suspended work with other manufacturers
                       due to quality assurance problems. While these actions are
                       encouraging, it is imperative that the Department take
                       action to improve oversight and communication throughout
                       the various projects and strengthen quality assurance
                       procedures to help prevent or detect additional problems.

Cost and               Procurement of SSCs that do not meet NQA-1 standards
Programmatic Impacts   can result in risk to the public, employees and the
                       environment as well as increasing costs and causing
                       operational delays and impacts to projects. In fact, the
                       Department has experienced cost increases associated with
                       recent quality assurance failures. For example, as of
                       October 2008, the MOX Facility has experienced costs of
                       more the $680,000 due to the procurement of $11 million
                       of nonconforming safety-class rebar. Further, SSCs that do
                       not meet NQA-1 quality requirements can result in
                       programmatic delays and impacts. For example, failure of
                       critical SSCs on the TEF project could result in an
                       unwanted release of radioactive gases. Similarly, the
                       failure of critical SSCs at the ISP could delay important
                       tank waste remediation.

RECOMMENDATIONS        We recommend that the Administrator, NNSA, and
                       Acting Assistant Secretary for EM strengthen quality
                       assurance at Savannah River by:

________________________________________________________________
Page 9                                          Recommendations
                              1. Establishing more rigorous policies and procedures
                                 to detect and/or prevent quality problems;

                              2. Evaluating safety-class/safety-significant
                                 procurements to determine whether the items will
                                 function as intended; and,

                              3. Developing procedures to coordinate and
                                 communicate quality assurance issues between
                                 projects and among Departmental and contractor
                                 elements.

MANAGEMENT                EM supported the report's conclusions and the recommendations.
REACTIONS                 EM stated that it had identified similar quality assurance
                          weaknesses at the Savannah River and was taking steps to
                          correct the weaknesses. EM committed to address future
                          quality assurance problems in a manner consistent with the
                          recommendations provided in our report. EM concluded
                          that its efforts were expected to improve the procurement
                          process for safety-class and safety-significant structures,
                          systems or components.
                          NNSA agreed with the recommendations presented in the
                          report; however, it did not agree with stated conclusions
                          concerning the safety of the facilities, related cost impacts,
                          or with the tone of the report. NNSA further asserted that
                          we had not taken into consideration the opinion of the U.S.
                          Nuclear Regulatory Commission (NRC) or key documents.
                          NNSA asserted that the NRC reviewed the same quality
                          assurance issues at the MOX Facility and concluded that
                          these issues were of low significance.
AUDITOR               We consider both the EM and NNSA management
COMMENTS              responses to be generally responsive to our recommendations.
                      As NNSA management noted in its response to our draft
                      report, the NRC ultimately determined that the specific
                      quality assurance problems identified in our report had
                      been corrected. Regarding the significance of quality
                      assurance problems discussed in our report, the NRC issued
                      the MOX Facility contractor a Notice of Violation after it
                      concluded that the failure to meet requirements for a
                      nonconforming material used in the MOX Facility
                      constituted a Severity Level IV violation, the lowest of
                      severity levels, of NRC requirements. NRC defines
                      Severity Level IV as violations involving the failure to
                      meet regulatory requirements, including one or more
                      quality assurance criterion. We, therefore, concluded that
                      the quality assurance problems at the MOX Facility were
________________________________________________________________
Page 10                                                               Comments
                      significant in that such weaknesses could, if not corrected,
                      permit the undetected procurement and installation of
                      components in critical nuclear facilities that do not meet
                      quality assurance standards.

                      Comments provided by NNSA tend to indicate that it
                      approaches the quality assurance issues at Savannah River
                      from a practical point of view, i.e., that through remedial
                      procedures it was able to resolve these particular
                      procurement and installation problems. The fact that the
                      materials were ultimately useable, however, does not
                      detract from the fact that the problems were unlikely to
                      have occurred if all quality assurance requirements had
                      been satisfied. Such weaknesses could, if not corrected,
                      permit the undetected procurement and installation of
                      components that do not meet quality assurance standards.

                      We revised the report as appropriate to respond to
                      management's technical comments.

                      Management's verbatim comments are included in
                      Appendix 3 of the report.




________________________________________________________________
Page 11                            Objective, Scope, and Methodology
Appendix 1

OBJECTIVE             The objective of this audit was to determine whether the
                      Department of Energy (Department) procured safety-class and
                      safety-significant structures, systems, and components that met
                      NQA-1 standards at the Savannah River Site (Savannah River).

SCOPE                 We conducted the audit from September 30, 2008, to April 8, 2009,
                      at Savannah River in South Carolina. The scope of the audit
                      covered procurements of safety-class/safety-significant structures,
                      systems and components at Savannah River. Our review focused
                      on the circumstances surrounding previously discovered suspect
                      procurements. We also indentified several problems of which
                      management was not aware.

METHODOLOGY           To accomplish the audit objective, we:

                         •   Obtained and reviewed quality assurance plans for
                             Washington Savannah River Company, the Tritium
                             Extraction Facility, and the Mixed Oxide Fuel
                             Fabrication Facility;

                         •   Obtained and reviewed procurement documentation at
                             Savannah River based on a judgmental sample of high
                             dollar value or high-risk safety-class and safety-
                             significant structures, systems, and components that
                             were procured;

                         •   Researched Federal, Departmental, and contractors
                             regulations, policies and procedures; and,

                         •   Interviewed key personnel in the Office of
                             Environmental Management, National Nuclear Security
                             Administration, Savannah River Site Office, Savannah
                             River Operations Office, Washington Savannah River
                             Company, and Shaw/AREVA MOX Services, LLC.

                      We conducted this performance audit in accordance with
                      generally accepted Government auditing standards. Those
                      standards require that we plan and perform the audit to obtain
                      sufficient, appropriate evidence to provide a reasonable basis
                      for our findings and conclusions based on our audit objectives.
                      We believe that the evidence obtained provides a reasonable
                      basis for our findings and conclusions based on our audit
                      objective. The audit included tests of internal controls and
                      compliance with laws and regulations to the extent necessary to
                      satisfy the audit objective. Because our review was limited, it
                      would not necessarily have disclosed all internal control

________________________________________________________________
Page 12                            Objective, Scope, and Methodology
Appendix 1 (continued)

                      deficiencies that may have existed at the time of our audit.
                      Also, we considered the establishment of performance
                      measures in accordance with the Government Performance and
                      Results Act of 1993 as they related to the audit objective. We
                      determined that no performance measures directly related to
                      quality assurance. Finally, we did not rely on computer-
                      processed data to accomplish our audit objective.

                      An exit conference was held with EM and NNSA on April 8,
                      2009.




________________________________________________________________
Page 13                            Objective, Scope, and Methodology
Appendix 2

                                      PRIOR REPORTS

    •   Audit Report on Quality Assurance Standards for the Integrated Control Network at the
        Hanford Site's Waste Treatment Plant (DOE/IG-0764, May 2007). The audit found
        that the Waste Treatment Plant control system acquired by the Department of Energy
        (Department) did not meet applicable quality assurance standards – specifically, those
        required for "an activity affecting the immobilization of radioactive high-level waste."
        As a result, the system does not meet the stringent procedures, plans, specifications, or
        work practices associated with nuclear quality standards. Under the circumstances, we
        concluded that the Department cannot be sure that the Waste Treatment Plant's current
        system is suitable for processing nuclear waste.

    •   Audit Report on the Department of Energy's Tritium Extraction Facility (DOE/IG-
        0560, June 2002). The audit found that the Department was in jeopardy of not
        completing the Tritium Extraction Facility within its baseline cost, schedule, and
        scope. Some of the underlying reasons for this were that construction began before the
        design was complete, risk assessments and cost estimates were not adequately updated,
        insufficient documentation existed to allow management to review cost estimates and
        strategies, contingency funds were not adequate, and senior management direction
        focused on total project costs rather than project requirements. Given these
        circumstances, the Tritium Extraction Facility project would be completed well over
        cost and approximately a year later than scheduled.

.




___________________________________________________________________
Page 14                                                  Prior Report
Appendix 3


                                        Department of Energy
                                            Washington, DC 20585

                                            February 18, 2009

             MEMORANDUM FOR RICKEY R. HASS
                            DEPUTY INSPECTOR GENERAL
                             FOR AUDIT SERVICES
                            OFFICE OF INSPECTOR ~ENERA~ .

             FROM:                   INES R. TRIAY          ~ ~~
                                     ACTING ASSISTANT SECRETARY FOR
                                       ENVIRONMENTAL MANAGEMENT

             SUBJECT:	               Inspector General Report (Pre-Decisional Draft) "Procurement
                                     of Safety Class/Safety Significant Items at the Savannah River
                                     Site"

             The Office of Environmental Management (EM) acknowledges the Office of the
             Inspector General (OIG) for the opportunity to review and comment on the Pre­
             Decisional Draft Audit Report, "Procurement ofSafety Class/Safety Significant Items at
             the Savannah River Site." EM through its own audit process has identified similar quality
             weaknesses at the Savannah River Site (SR) and is taking steps to ameliorate the
             weaknesses. Therefore, EM supports the conclusions and recommendations reached by
             the OIG.

             EM has been proactive in identifying similar issues through quality oversight of EM
             construction and operational projects that have or are currently procuring safety-class,
             safety-significant structures, systems or components (SSCs). Any additional issues
             identified during these audits are being addressed in a manner consistent with the
             recommendations provided in your report. These efforts are expected to improve the
             procurement process for safety-class and safety-significant SSCs in addition to improving
             the oversight of our contractors.

             Three recommendations were offered within the Draft Audit Report.

             The actions below summarize some of the initial progress that EM and SR have made
             with respect to these recommendations.

             1.	     Establishing more rigorous policies and procedures to detect and/or prevent
                     quality problems:

                     The issues identified in this report represent a failure of contractors and
                     subcontractors to properly implement existing requirements and policies.
                     EM agrees that current practices can and should be enhanced to provide greater
                     Federal and contractor oversight and assurance that requirements are being
                     properly implemented. Specifically, with respect to SR, the site will focus on
                     ensuring that "flow-down" of American Society of Mechanical Engineers Nuclear




Page 15
                                          *    Printed with soy ink on recycled paper

                                                                                         Management Comments
Appendix 33


                    Quality Assurance-l (NQA-l) requirements to vendors supplying safety related
                    equipment and services is strictly enforced. The site Management and Operations
                    (M&O) contractor has already completed an independent assessment of its
                    Quality Assurance (QA) and Procurement process at SR and developed numerous
                    actions to improve the process. As a result of EM Headquarters initiatives in
                    early fiscal year (FY) 2008 to enhance QA performance, an EMJEnergy Facility
                    Contractor Group (EFCOG) QA Improvement Initiative Project Plan was
                    established. Further, all DOE and site contractor quality assurance plans are
                    currently being evaluated and updated or revised to meet the new EM Corporate
                    QA Program requirements. This effort is currently scheduled to be completed by
                    the end of FY 2009. The FY 2008 SR staffing plan was also approved to increase
                    the number of DOE QA oversight personnel from one to five and the site is in the
                    process of filling these positions. This will enable SR Federal oversight to better
                    assess QA implementation within ongoing projects, including subcontractors.

              2.	   Evaluating safety-class/safety-significant procurements to determine whether
                    the items will function as intended:

                    EM has placed each of the components discussed in this report under a rigorous
                    startup testing program to verify its ability to perform the intended safety
                    function.

              3.	   Developing procedures to coordinate and communicate quality assurance
                    issues between projects and among Departmental and contractor elements at
                    the Savannah River Site:

                    EM agrees that there should be better coordination among QA organizations
                    within DOE and National Nuclear Security Administration (NNSA) and is
                    currently assessing options for improving procedures and processes. The
                    following initial improvements have been made:

                            a.	    SR with NNSA are hosting the 2009 Regional Nuclear Suppliers
                                   Outreach Event on March 17-19,2009, which is an opportunity for
                                   regional and international businesses to gain insights into the
                                   NNSA market for nuclear services and products as well as the QA
                                   requirements to enter this market. A four hour NQA-l
                                   requirements training course for suppliers will be offered at the
                                   meeting. In July 2008 the first annual nuclear suppliers outreach
                                   event was successfully held in Denver, CO, to address the
                                   worldwide need for qualified nuclear vendors and suppliers.

                           b.	     SR and NNSA has established and staffed a Lessons Learned
                                   Coordinator position to ensure the dissemination of lessons
                                   learned, including QA issues, between NNSA and EM
                                   organizations at the SR Site.

                           c.	     SR and NNSA are coordinating to strengthen oversight of project
                                   quality and ensure that new projects review QA lessons learned



Page 16                                                                                  Management Comments
Appendix 3 (continued)


                                  from past projects, including the operating experiences learned
                                  after startup, and incorporate them.

                          d.	     SR's Office of Acquisition Management will establish additional
                                  procedures and processes to tighten controls over existing
                                  contractors beginning with requiring approved QA plans for each
                                  step on existing scope before allowing additional work to proceed.

                           e.	    SR will host monthly interface meetings with NNSA and
                                  other tenants on-site. The focus of the meetings will be to discuss
                                  site programs and processes specific to work activities and the
                                  associated QA requirements.

            The Department will apprise the IG of its progress in implementing the recommendations
            by using the process established in the DOE Audit Reporting and Tracking System.

            Please be assured, our first commitment is to the health and safety of our workers and the
            public. If you have any questions, please call me at (202) 586-5216 or Mr. Dae Chung,
            Deputy Assistant Secretary for Safety Management and Operations, at (202) 586-5151.

            cc:
            J. Owendoff, EM-3
            C. Anderson, EM-3
            J. Fiore, EM-6
            J. Boone, EM-6
            J. Surash, EM-50
            J. Allison, SR
            C. Everatt, SR
            R. Speidel, NA-66




Page 17                                                                                   Management Comments
Appendix 3 (continued)


                                         Department of Energy
                                    National Nuclear Security Administration
                                             Washington DC 20585


                                               February 25,2009                      OFFICE OF THE ADMINISTRATOR




           MEMORANDUM FOR:               Rickey R. Hass
                                         Deputy Inspector General
                                           for Audit Services

           FROM:	                         William C. Ostendorff
                                          Principal Deputy Administrator

           SUBJECT:	                      Comments to Draft Procurement of Safety-Class/
                                          Safety-Significant Items; Job Code A08RL067; IDRMS
                                          No. 2008-03181


           The National Nuclear Security Administration (NNSA) appreciates the opportunity to
           review the Inspector General's (IG) draft report, "Procurement of Safety-Class/Safety­
           Significant Items at the Savannah River Site." We understand that the purpose of this
           audit was to determine if the Department of Energy (DOE) had procured safety-class and
           safety-significant items that met appropriate quality standards at Savannah River.

           NNSA agrees with the recommendations presented in the report but does not agree with
           the stated conclusions concerning the safety of the facilities, related cost impacts or with
           the tone of the report. The actions that NNSA has taken or are being implemented will
           provide increased confidence to NNSA's program and project management in the
           continued improvement of procurement quality assurance (QA) systems.

            NNSA does not agree with the IG report's estimated cost impacts. For example, the
            report implies the TEF furnace module doors, valued at $690,000, were not useable due
            to the QA issues stated. In fact, these doors were fully certified using standard NQA-1
            approved engineering procedures at a cost ofless than $100,000. Similarly, the $12
            million glovebox, implied to be a complete loss, was fully certified using standard
            engineering procedures during pre-startup testing at no additional cost to the government.

            The report also fails to acknowledge that, while the auditors raised concerns about
            QA/Nuclear Quality Assurance (QAlNQA) at the MOX facility, they failed to
            acknowledge the opinion of the official federal regulatory authority over MOX as
            expressed in the Nuclear Regulatory Commission (NRC) letter that places the IG's
            concerns in perspective. It is important to reference that the NRC, by law, regulates the
            MOX facility, including quality. The IG report conclusions differ substantially from the
            official position ofthe NRC on precisely the same issues.




                                           I)    Printed with soy ink on recycled paper

Page 18                                                                                        Management Comments
Appendix 3 (continued)

                                                                                                    2


           The report does not mention that the NRC issued the results of its assessment of the
           contractor's performance covering the time period of October 16, 2006 through
           September 30, 2008. The NRC had assessed the same issues that are included in this
           draft report and concluded that the same issues raised by the IG were "violations of low
           significance" and that the NRC's review did not identify any areas needing improvement
           in management measures, facility construction, or facility support. The review by NRC
           was significantly longer in duration and more in-depth than the audit that is being
           captured in this report.

           There are no indications that parts or components have been installed in the MOX facility
           that are inadequate to protect the public, employees and the environment as the report
           implies. All nonconforming material at issue in the MOX facility has been evaluated and
           technically justified as acceptable using appropriate "NQA-l" processes as outlined in
           the NRC-approved MOX Quality Assurance Plan and Procedures.

           Attached are the actions that we are taking in relation to the recommendations.

           Should you have questions about this response, please contact the Director, Policy and
           Internal Controls Management. NNSA has additional technical comments for the IG's
           consideration should the IG be receptive to receiving them.

           Attachment

           cc:	   Deputy Administrator for Defense Nuclear Nonproliferation
                  Deputy Administrator for Defense Programs
                  Senior Advisor for Environment, Safety and Health
                  Assistant Deputy Administrator for Nuclear Safety and Operations
                  Director, Service Center
                  Senior Procurement Executive




Page 19                                                                                      Management Comments
Appendix 3 (continued)

                                                                                                   1


            Steps to be Taken as Related to the Recommendations in the IG's Draft Report on
                    Procurement of Safety-Class/Safety-Significant Items (A08RL067)


           Regarding the recommendations, NNSA reiterates our agreement with the IG that quality
           assurance can always be strengthened. Therefore, the following actions related to the
           recommendations are in place.

              •	 Establishing more rigorous policies and procedures
                    o	 The DOE-SR issues identified in the IG report are primarily the failure of
                        contractors and subcontractors to properly implement existing
                        requirements and policies. DOE-SR and the NNSA SRSO agree that
                        current practices can and should be enhanced to provide greater Federal
                        and contractor oversight and assurance that requirements are being
                        properly implemented - with specific focus to ensure that "flow-down" of
                        NQA-I requirements to vendors supplying safety related equipment and
                        services is strictly enforced. The management and operating (M&O)
                        contractor has already completed an independent assessment of its
                        QA/procurement process at SRS and developed numerous actions to
                        improve the process. As a result of DOE-EM Headquarters' initiatives in
                        early FY 2008 to enhance QA performance, an EM complex-wide QA
                        plan was established and all DOE and site contractor QA plans are
                        currently being evaluated and updated or revised to meet the new EM
                        requirements. That effort is currently scheduled to be completed by the
                        end ofFY 2009. The FY 2008 DOE-SR staffing plan was also approved
                        to increase the number of DOE QA oversight personnel from I to 5 and
                        the site is in the process of filling these slots. This will enable DOE-SR to
                        better assess QA implementation within ongoing projects, including
                        subcontractors and procurements.
                    o	 As stated above regarding the IG's concerns with the MOX facility,
                        NNSA does not believe that more rigorous policies and procedures need to
                        be established. However" NNSA does believe our oversight efforts
                        needed to be improved and, accordingly, the MOX project has taken the
                        following actions:
                            •	 Increased oversight of the contractor by hiring a Senior QA
                                 Manager. This individual is conducting reviews and assessments
                                ofMOX project activities and reports independently of the NA-26
                                office directly managing the MOX project.
                            •	 Implemented NNSA's latest performance evaluation and
                                assessment tool to better track and ensure resolution of issues.
                            •	 Strengthened the MOX prime contractor's award fee criteria to
                                 increase emphasis on the critical nature ofNQA-1 compliance.
                            •	 Upgraded the MOX project annual assessment plan to emphasize
                                 review of contractor and subcontractor QA procedures.




Page 20                                                                                  Management Comments
Appendix 3 (continued)
                                                                                                2


                           •	 Provided NQA-l lead auditor training for NNSA personnel
                               directly overseeing the construction and procurement of the MOX
                               project.
             •	 Procurement of safety-related equipment
                   o	 NNSA's Office of Fissile Materials Disposition has taken significant
                      action to improve assurance of quality in the MOX facility as indicated by
                      the following:
                           •	 Performed over 20 field assessments of suppliers (including those
                               overseas) ofMOX equipment with many more assessments being
                               performed by MOX prime contractor personnel to ensure that
                               NQA-l requirements have been implemented. More assessments
                                are being planned for the next 12 months.
                            •	 Reduced the risk to project quality and functionality by approving
                                a change in project strategy to assemble and test over 100 ofthe
                                most complex safety-related process glove boxes at the site. Prime
                                contractor personnel will perform the work according to the MOX
                                QA procedure in lieu of subcontracting to outside suppliers.
                            •	 Approved a greater than 100 percent increase in prime contractor
                                QA staffing (from 35 to 75) to provide increased surveillance of
                                supplier quality.
                            •	 Developed a program in which the MOX prime contractor will
                                locate QA personnel full-time at each key NQA-l supplier location
                                until it has demonstrated high quality work.
                            •	 Obtained lists of qualified suppliers ofNQA-l equipment from
                                several DOE sites for use by the MOX project.
                   o	 DOE-SR and SRSO both agree with the recommendation regarding the
                       specific quality issues discussed in the IG report. Each issue has been
                       reviewed by the M&O contractor's engineering staff to ensure there are no
                       adverse affects on safety. Additionally, each of the components discussed
                       in this report underwent a rigorous startup testing program which verified
                       their ability to perform the intended safety function.
                   o	 NNSA SRSO has also taken strong actions to improve its oversight of QA
                       of safety significant items as demonstrated by these examples:
                            •	 At the time the procurements associated with the TEF construction
                                was being made, the SRSO QA Program was focused primarily on
                                weapons and operating facility quality assurance. Since that time,
                                a second quality engineer position has been added.
                            •	 SRSO has also greatly increased its focus on the quality of
                                purchased components used in NNSA's tritium facilities. For
                                example, a SRSO quality engineer recently spent several weeks at
                                a subcontractor's shop overseeing the construction of magnesium
                                beds used in the TEF stripper system to ensure they were
                                manufactured to meet quality requirements.
                            •	 Additionally, the SRSO QA Assessment Program has been revised
                                to include assessments of work being performed by subcontractors
                                within their facilities to ensure quality requirements have been




Page 21                                                                               Management Comments
Appendix 3 (continued)

                                                                                                 3


                             properly flowed down from our M&O contractor to the
                             subcontractors.
             •	 Communication of QA issues with other projects
                  o	 NNSA's MOX program element is taking strong actions to improve
                      communication of quality issues:
                         •	 Conducted visits and lessons-learned exchanges between the MOX
                             project team and other DOE nuclear projects including the Hanford
                             Waste Treatment Plant, the Y-12 Highly Enriched Uranium
                             Material Storage Facility, the Yucca Mountain project, and the Salt
                             Waste Processing Facility project, to name a few. Additional visits
                             and exchanges are being planned for the future.
                         •	 Where appropriate, posted lessons-learned information in DOE's
                             occurrence reporting system and on NNSA's project management
                             website. In addition, the prime contractor has issued lessons­
                             learned through the NRC process.
                          •	 Met on a routine basis, usually weekly, with senior DOE managers
                             at Savannah River to discuss the status of MOX project including
                             QA issues and items.
                          •	 Maintained an open communication with other DOE QA
                              specialists at the Site to keep abreast of the latest information and
                              Issues.
                   o	 Similarly, DOE-SR and SRSO agree there should be better coordination
                      between the entities on quality assurance issues. DOE-SR and SRSO are
                      currently assessing the options for improving procedures and
                      communications in the quality assurance arena, and will implement
                      improvements where necessary. For example:
                          •	 DOE-SR and NNSA are hosting the 2009 Nuclear Outreach
                              Conference on March 17-19, which includes regional, field-wide
                              and international involvement for training businesses in the NQA-l
                              certification process. This program is sponsored by DOE EM-l in
                              partnership with NNSA and addresses international shortages in
                              qualified NQA-l contractors and suppliers.
                          •	 SRSO has established and staffed a Lessons Learned Coordinator
                              position which coordinates closely with DOE-SR personnel to
                              ensure the dissemination oflessons-Iearned, including QA issues,
                              between NNSA and EM organizations at the Savannah River Site.
                          •	 SRSO is working with NNSA HQ to strengthen oversight of
                              project quality and ensure that new projects review QA lessons­
                              learned from past projects, including the operating experiences
                              learned after startup, and incorporate them.
                          •	 For the last year and a half, DOE-SR Office of Acquisition
                              Management (OAM) has taken a more proactive role in oversight
                              of safety related procurements, solicitations and awards. DAM
                              intervened and prevented a subcontract award to a vendor currently
                              under investigation by the OIG.




Page 22                                                                                Management Comments
Appendix 3 (continued)

                                                                                                     4


                             •	 DOE-SR OAM has also applied tight controls over an existing
                                contractor by requiring approved QA plans for each step on
                                existing scope before allowing additional work to proceed.

          Finally, NNSA Headquarters has established a partnership with the Energy Federal
          Contractors Group (EFCOG) to improve QA throughout the Nuclear Weapons Complex.
          This project is initially focusing on improving QA in nuclear construction projects and
          will address issues such as those in the IG report on a risk-prioritized basis. This project
          is being led by the Defense Programs QA Manager with a co-Project Manager from the
          EFCOG Integrated Safety Management/QA community. The project goal is to
          institutionalize processes and methods to ensure that construction project QA programs
          and efforts preclude recurrence of events that negatively impact the assurance of quality
          in our construction projects and work, in general.




Page 23                                                                                   Management Comments
                                                             IG Report No. DOE/IG-0814

                       CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations



If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith (202) 586-7828.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                  http://www.ig.energy.gov

  Your comments would be appreciated and can be provided on the Customer Response Form.
